HHS/OIG-Audit--"Review of the Food and Drug Administration's Processing of a New Drug Application for Therafectin, (A-15-94-00023)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Food and Drug Administration's Processing of a New Drug
Application for Therafectin," (A-15-94-00023)
August 2, 1995
Complete Text of Report is available in PDF format
(881 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
In September 1993 the Food and Drug Administration (FDA) informed Greenwich
Pharmaceuticals, Inc. (Greenwich) that its new drug application (NDA) for a
new drug (Therafectin) to treat rheumatoid arthritis could not be approved because
there was not adequate data demonstrating the drug's effectiveness. Subsequently,
Congressman John D. Dingle requested that the OIG review Greenwich's concerns
that the FDA did not follow applicable administrative procedures in reviewing
the drug application. We found that, in general, the FDA did properly process
the Therafectin NDA. We noted certain administrative shortcomings, but found
no evidence that they affected the approval status of the NDA. In the final
analysis, Greenwich was not able to adequately demonstrate--either to the FDA
or an Arthritis Advisory Committee--that Therafectin was effective for the treatment
of rheumatoid arthritis. As a result of this matter the FDA is instituting administrative
improvements to strengthen the NDA review process.